       U.S. Department of the Interior
       Office of Inspector General

                                    Audit Report
                           Concession Management and
                             Fee Collection Operations,
                               St. Croix National Park,
                                 National Park Service




Report No. V-IN-NPS-0004-2003-A          December 2003
                                                                        V-IN-NPS-0004-2003-A



                United States Department of the Interior
                               OFFICE OF INSPECTOR GENERAL
                                    Eastern Regional Office
                                  381 Elden Street – Suite 1100
                                    Herndon, Virginia 20170



                                                                             December 30, 2003
Memorandum

To:           Superintendent – St. Croix National Park

From:         William J. Dolan, Jr.
              Regional Audit Manager, Eastern Region

Subject:      Final Audit Report “Concession Management and Fee Collection Operations,
              St. Croix National Park, National Park Service” (V-IN-NPS-0004-2003-A)

        The attached report presents the results of our audit of concession management and fee
collection operations at the St. Croix National Park. The objective of our audit was to determine
whether the St. Croix National Park followed prescribed procedures for these operations.

       The legislation, as amended, creating the Office of Inspector General, (5 U.S.C. app. 3)
requires that we report to Congress semiannually on all reports issued, actions taken to
implement our recommendations, and recommendations that have not been implemented.
Therefore, this report will be added to the next semiannual report. In addition, the Office of
Inspector General provides audit reports to Congress.

       Because the four recommendations contained in this report are considered to be resolved
and implemented, no response is required.


Attachment
                                       V-IN-NPS-0004-2003-A




[This page intentionally left blank]
CONTENTS
                   Background .................................................................................... 1
INTRODUCTION       Objective and Scope ...................................................................... 2
                   Prior Audit Coverage ..................................................................... 3


                   Overview........................................................................................ 5
RESULTS OF AUDIT   Concession Operations................................................................... 5
                   Fee Collections............................................................................... 8


                   To the Park Superintendent............................................................11
RECOMMENDATIONS    Auditee Response...........................................................................11


                   1.   Prior Audit Coverage ................................................................12
APPENDICES         2.   Monetary Impact.......................................................................13
                   3.   Approved Concessionaires........................................................14
                   4.   Response to Draft Report..........................................................15
                   5.   Status of Recommendations......................................................20




                                              i
[This page intentionally left blank]




                  ii
INTRODUCTION
             The St. Croix National Park was established in 1952 and includes:
BACKGROUND   the Christiansted National Historic Site, the Buck Island Reef
             National Monument, and the Salt River Bay National Historic Park
             and Ecological Preserve.

             The Christiansted National Historic Site was established to
             preserve the historic 18th and 19th century structures and grounds
             within its boundaries and to demonstrate the Danish economy and
             way of life at the time. The St. Croix National Park manages five
             of the seven historic buildings in the area: Fort Christiansvaern,
             the Steeple Building, the Danish West India & Guinea Company
             Warehouse, the Customs House, and the Scale House.

             The Buck Island Reef National Monument was established in 1961
             to protect the shoals, rocks, and coral reef formations adjoining
             Buck Island. Lying to the north of St. Croix, Buck Island includes
             176 acres of land and 18,839 acres of water and coral reef systems.

             The Salt River Bay National Historic Park and Ecological Preserve
             was established in 1992 to protect and enhance the natural and
             cultural resources of the area where Christopher Columbus landed
             during his 1493 expedition.

             The Park’s organizational chart shows 42 staff positions but at the
             time of our review, only 17 employees were assigned to
             maintenance, law enforcement, fee collection, interpretation,
             natural and cultural resource management, and administration.

             Park expenditures totaled $1.7 million in fiscal year (FY) 2001 and
             $1.8 million in FY 2002. The Park collected $46,207 in fees
             ($27,804 from franchise fees, $15,670 from entrance fees, and
             $2,733 from parking fees) for FY 2001 and $64,849 in fees
             ($21,577 from franchise fees, $20,669 from entrance fees, and
             $22,603 from parking fees) in FY 2002.

             Six concessionaires (see Appendix 3) operated at the Buck Island
             Reef National Monument on the basis of contracts (two
             concessionaires) or commercial use permits (four concessionaires).
             The concessionaires provided water taxi services to Buck Island
             for the purposes of snorkeling, hiking, picnicking, and sightseeing.
             Concessionaires were required to pay the Park a monthly fee equal
             to 2 percent of their gross receipts from concession operations.




                               1
                The St. Croix National Park collected fees from customers who
                parked in a Park-owned lot adjacent to Fort Christiansvaern and
                visitor entrance fees for access to Fort Christiansvaern and the
                Steeple Building.


                The objective of the audit was to determine whether the St. Croix
OBJECTIVE AND   National Park followed prescribed procedures for its concession
SCOPE           management and fee collection operations. A separate report will
                be issued on our review of concession management and fee
                collection operations of the Virgin Islands National Park on
                St. John.

                The scope of audit included a review of concession management
                and fee collection activities and transactions that occurred during
                fiscal years 2001 and 2002, and other periods as appropriate. To
                accomplish the audit objective, we interviewed Park personnel and
                reviewed concession management files and documents, daily shift
                and reconciliation reports for entrance fees, and activity reports for
                parking lot fees.

                Our audit was conducted in accordance with the “Government
                Auditing Standards,” issued by the Comptroller General of the
                United States. Accordingly, we included such tests of records and
                other auditing procedures that were considered necessary under the
                circumstances. The “Standards” require that we obtain sufficient,
                competent, and relevant evidence to afford a reasonable basis for
                our findings and conclusions.

                As part of our audit, we evaluated the internal controls related to
                concession management and fee collection operations to the extent
                we considered necessary to accomplish the audit objective.
                Internal control weaknesses in these areas are discussed in the
                Results of Audit section of this report. The recommendations, if
                implemented, should improve the internal controls in these areas.

                We also evaluated the validity of Government Performance and
                Results Act (GPRA) performance measures for the St. Croix Park
                and found them to be appropriate and reasonable. The Park’s
                annual performance report for FY 2001 stated that 5 of 6
                performance goals for the Christiansted Historical Site, 8 of 10
                goals for the Buck Island Monument, and the 1 goal of the Salt
                River Bay Preserve had been met or exceeded. The performance
                report for FY 2002 was not available at the time of our review.




                                   2
              During the past 5 years, the Office of Inspector General has not
PRIOR AUDIT   issued any audit reports on National Park Service operations in the
COVERAGE      Virgin Islands. However, the March 1995 report “Selected
              Administrative Functions, Virgin Islands National Park, National
              Park Service” (No. 95-I-647) disclosed deficiencies related to
              concession operations, property management, and the deposit of
              collections (see Appendix 1).




                                3
[This page intentionally left blank]




                  4
RESULTS OF AUDIT
                       The St. Croix National Park did not administer its concession
OVERVIEW               operations in accordance with Park Service Guidelines.
                       Specifically, we found that the Park did not maintain complete and
                       accurate records to ensure concessionaire compliance with
                       financial and performance requirements and did not deposit
                       franchise fees timely. National Park Service Guideline 48, the
                       Parks Concession Management Plan, and the terms of
                       concessionaires’ contracts and permits establish requirements for
                       documents that must be maintained in the Park’s files on each
                       concessionaire and for timely deposit of franchise fees. We
                       attribute the lack of compliance to the fact that the Park had not
                       assigned a specific employee to be responsible for the concession
                       management operations. Without complete and accurate records,
                       the Park cannot ensure that the concessionaires pay the appropriate
                       franchise fees or determine their compliance with all insurance and
                       safety requirements. Also, Park officials did not implement
                       adequate internal controls or develop formal policies or procedures
                       for fee collections.


                       National Park Service Guideline 48, the Parks Concession
CONCESSION             Management Plan, and the terms contained in the individual
OPERATIONS             contracts and permits require that the Park obtain and keep specific
                       records. Based on our review of the concessionaire files, we found
                       that the Park did not ensure concessionaire compliance, and the
                       files did not contain the following essential documents.


                       ► For FY 2001, supporting documentation was unavailable for
Lack of Complete and
                         25 of 61 franchise fee payments made by concessionaires; for
Accurate Files
                         FY 2002, supporting documentation was unavailable for 22 of
                         72 payments made by concessionaires.

                       ► None of the concessionaire files contained the required
                         documentation indicating that Park personnel evaluated
                         concessionaire business practices during the 2-year period
                         prior to contract or permit renewal. Additionally, the files for
                         two concessionaires did not contain documentation to show
                         that the contracts or permits had been extended.

                       ► Three of the six concessionaire files did not contain the
                         required documentation indicating that Park personnel
                         periodically evaluated the safety of concessionaire boats that



                                         5
       operate on a yearly basis. These periodic evaluations are
       especially important because Coast Guard inspections of these
       vessels are only performed on an annual basis.

► Two of the six concessionaire files did not contain the required
  documentation of insurance. The individual contracts and
  permits stipulate that each concessionaire maintain watercraft
  liability insurance ranging from $500,000 to $2 million and
  name the Park as an additional insurer. However,
  documentation of insurance was not found in the
  concessionaire files for two concessionaires: a contract
  concessionaire, which operated six vessels, with required
  liability of $2 million per occurrence with a $3 million annual
  aggregate; and a permit concessionaire, which operated one
  vessel, with required liability of $500,000 per occurrence with
  a $1 million annual aggregate.

► Three of the six concessionaire files did not contain
  appropriate Coast Guard certification documentation for vessel
  inspection. In addition, five of the concessionaire files did not
  contain documentation of crew member certification in
  lifesaving, first aid, and cardiopulmonary resuscitation
  techniques.1

► One of the six concessionaire files did not contain the required
  permit to operate in Park waters.

► Only one of the six concessionaire files documented full
  compliance with Park requirements for adequate financial
  records. One concessionaire file did not contain annual
  financial reports for either FYs 2001 or 2002. The four
  remaining concessionaire files only contained annual financial
  reports for one year or the other.

Although a National Park Service official stated that the
Concessions Program Center in Denver reviews the annual
financial reports, we believe that copies of the financial reports
should also be maintained in the Park’s concessionaire files
because local Park officials are ultimately responsible for ensuring
that the Park’s concessionaires comply with applicable
documentation requirements.

In July 2003, subsequent to the completion of our field review, we
contacted the Concessions Manager in Atlanta and requested her
assistance in obtaining the compliance documentation missing at
1
    Requirements of the Concession Management Plan, Section II-A and II-B.


                       6
                   the time of our review. She reviewed her files and also directed
                   St. Croix Park officials to obtain and provide the missing
                   documentation. However, Park officials were only able to provide
                   us with one missing annual financial report for one concessionaire.
                   Therefore, there is no assurance that concessionaires have fully
                   complied with important safety-related requirements, such as
                   safety checks of their vessels, lifesaving certification of crew
                   members, and liability insurance coverage.

                   We also found that records supporting the franchise fee amounts
                   were not consistently maintained in the concessionaire files.
                   Access to franchise fee collection information is vital, which
                   should include records that show each concessionaire’s monthly
                   activities, gross revenues, number of passengers, and excursion
                   cost per passenger to ensure that the correct franchise fees were
                   paid.

                   We believe that the St. Croix National Park Superintendent should
                   appoint a Park employee to be responsible for oversight of
                   concession management operations. The individual should then
                   contact all concessionaires to obtain missing compliance
                   documentation and establish policies and procedures to ensure that
                   concessionaires adhere to compliance and documentation
                   requirements and that the Park’s concessionaire files are current
                   and complete.


Franchise Fee      Guideline 48, Chapter 24, requires that concessionaires pay a
Collections Not    franchise fee of 2 percent of their gross receipts within 15 days
Deposited Timely   after the end of each month. We found that the six concessionaires
                   generally paid franchise fees by the required deadlines. However,
                   Park personnel held the franchise fees an average of approximately
                   63 days before forwarding them for deposit in a Federal Reserve
                   Bank in Florida. For example:

                   ► On December 5, 2000, a concessionaire paid franchise fees of
                     $1,406.90 for the month of November 2000; however, the Park
                     did not forward the concessionaire’s check for deposit until
                     May 5, 2001, or 5 months.

                   ► On April 10, 2002, a concessionaire paid franchise fees of
                     $424.40 for the month of March 2002; however, the Park did
                     not forward the concessionaire’s check for deposit until
                     January 13, 2003, or 9 months.




                                     7
                  We estimated that potential interest income totaling $475 was lost
                  during FYs 2001 and 2002 because of the untimely deposit of
                  franchise fee collections.

                  We believe that the Park employee designated to oversee
                  concession management operations should ensure that (1) the
                  amount of franchise fee payments received from concessionaires is
                  fully supported and accurately represents 2 percent of
                  concessionaires’ gross receipts, and that (2) the Park deposits
                  franchise fee collections to the Federal Reserve Bank in a timely
                  manner.

                  At the September 17, 2003, exit conference for the audit, Park
                  officials stated that they were in the process of issuing a vacancy
                  announcement for a Concession Management Specialist to oversee
                  concession operations at the St. Croix National Park. In the
                  interim, concession management duties were temporarily assigned
                  to existing staff and, as a result, efforts were being made to obtain
                  the documentation that was missing from the concessionaire files
                  and fee collections were being deposited timely.


                  Park officials did not implement adequate internal controls or
FEE COLLECTIONS   develop formal policies or procedures for employees to collect
                  parking lot and entrance fees. As a result, we noted several internal
                  control weaknesses.


Parking Fee       Park officials allowed certain users of the parking lot to bypass the
Collections       payment of the normal fee by initialing the tickets issued by the
                  entrance machine and validating them as “non-paying.” However,
                  the Park did not maintain a permanent record of which
                  pre-numbered tickets were validated as “non-paying,” the date, the
                  name of the visitor, or the name of the approving Park official.
                  Additionally, the Park discarded the used parking tickets that were
                  removed from the exit machine. Therefore, there was no method
                  to ensure that Park employees did not improperly validate tickets
                  as “non-paying” and then keep the cash collected from customers.
                  We noted that during a 24-day test period, 45 “non-paying” tickets
                  valued at $180 were issued. Based on our discussion with the Fee
                  Collection Supervisor, the Park has begun to retain the used
                  parking tickets for documentation purposes.

                  Park officials did not regularly reconcile the internally-generated
                  reports produced by the cash register used for parking fee
                  collections to the actual amount of cash in the register at the end of



                                     8
               each day. Additionally, due to problems with the programming of
               the register and possible user error, the internally-generated reports
               were not always accurate and sometimes were not produced at all.
               For example, the reports were not produced for 7 days during the
               period of January 29 to February 19, 2002, and for 5 days during
               the period of April 11 to 25, 2002. As a result of our discussion
               with the Fee Collection Supervisor, the Park has asked the cash
               register company to review and correct the programming of the
               register. In the interim, however, there was no consistent control
               over or reconciliation of daily parking fee collections.

               Also, our review of the available collection and deposit records for
               a sample of 11 deposit batches during the period of August 3,
               2001, through January 21, 2003, disclosed cash shortages (deposits
               less than collections) totaling $426.

               The Park should develop and implement formal policies and
               procedures to ensure that adequate internal controls exist over the
               collection and deposit of parking fees. These controls should
               include procedures to limit the authorization of “non-paying”
               tickets by specifically designated officials, require daily
               reconciliations of cash collections to the cash register reports and
               the used parking tickets, and require the retention of used parking
               tickets until any reconciliation discrepancies have been reviewed
               and satisfactorily explained.

Entrance Fee   The Park charges an entrance fee of $3 per adult for visits to both
Collections    Fort Christiansvaern and the Steeple Building. Free entry is
               allowed to children and to adult visitors who possess or purchase
               one of several types of multi-use passes (Golden Age Pass, Annual
               Park Pass, Golden Access Permit, Golden Eagle Permit). Visitors
               pay the appropriate fee at the Visitors’ Center and are given a cash
               register-generated receipt by the Park cashier. This receipt must be
               used to gain access to the Steeple Building. The cash register2
               maintains an internal report of all transactions. This internal report
               should correspond to the User Shift report manually prepared by
               each cashier and to the actual cash on hand.

               Formal policies for collection of entrance fees were contained in a
               document called “Fee Collection Guidelines for Christiansted
               National Historic Site,” which conforms to National Park Service
               Guideline 22. Despite these policies, we found evidence that
               internal controls over entrance fee collections needed
               improvement. Specifically, we found that:

               2
                Separate cash registers were used for parking fee collections and entrance fee
               collections.


                                     9
► The only verification of daily collections was to compare the
  amount of cash in the register to the internal register report at
  the end of each day. However, the internal reports generated
  by the Park’s cash register were incorrect and unreliable for
  verifying the amount of daily cash collections.

► The cash register could print duplicate receipts without
  recording this fact in an internal report. As a result, duplicate
  copies of receipts could be given to other visitors, thereby
  allowing the misappropriation of collected fees. Based on our
  review, the Fee Collection Supervisor stated that she would
  acquire a new cash register for entrance fee collections.

► The Park was not making weekly deposits of entrance fee
  collections, as required by the guidelines. Instead, Park
  personnel took an average of 12 days during FY 2001 and
  18 days during FY 2002 to mail deposits to the Federal
  Reserve Bank in Florida. The only verification of daily
  collections was to compare the amount of cash in the register
  to the internal register report at the end of each day.

► The Park did not perform unannounced spot checks of cash
  collections at least once every two weeks. Only one spot check
  was conducted during FYs 2001 and 2002. A Park official said
  that he did not perform unannounced spot checks because he
  had too many other things to do.

The Fee Collection Guidelines were compiled to establish internal
controls and to prevent and detect fee collection irregularities.
Noncompliance with the procedures resulted from inadequate
supervision of the collection process and provided the opportunity
for manipulation of the process. In addition, the Park should
replace the malfunctioning cash registers to ensure that internal
reports are accurate and usable.

At the September 17, 2003, exit conference for the audit, Park
officials stated that an order had been placed for new cash registers
for the parking and entrance fee collections; improved controls had
been implemented for “non-paying” tickets for the parking lot,
including the maintenance of a log of such “non-paying” tickets;
and reconciliations of collections and deposits were being
performed on a daily basis.




                  10
RECOMMENDATIONS
                   We recommend that the Superintendent of the St. Croix National
TO THE PARK        Park:
SUPERINTENDENT
                       1. Appoint an employee of the St. Croix National Park to be
                   responsible for oversight of the concession management
                   operations. This individual should ensure that concessionaire files
                   contain all required documentation (as discussed in the Results of
                   Audit section), the amount of franchise fee payments received
                   from concessionaires is fully supported and accurately represents
                   2 percent of concessionaires’ gross receipts, and deposits of
                   franchise fee collections are made to the Federal Reserve Bank in a
                   timely manner.

                       2. Develop and implement formal policies and procedures to
                   ensure that adequate internal controls exist over the collection and
                   deposit of parking fees. These controls should include procedures
                   to limit the authority to issue “non-paying” tickets to specifically
                   designated officials, require daily reconciliations of cash
                   collections to the cash register reports and the used parking tickets,
                   and require the retention of used parking tickets until any
                   reconciliation discrepancies have been reviewed and satisfactorily
                   explained.

                       3. Direct the Fee Collection Supervisor and other collection
                   personnel to comply with the collection and deposit requirements
                   contained in the Fee Collection Guidelines for entrance fees.

                       4. Address the problems related to the accuracy of the internal
                   reports generated by the cash registers used for parking lot and
                   entrance fees, either by having the cash registers reprogrammed to
                   correct the problems or by acquiring new cash registers.


                   We received a November 14, 2003, response (Appendix 4) to the
AUDITEE RESPONSE   draft report from the Superintendent of the St. Croix National Park.
                   The response concurred with the recommendations and indicated
                   that corrective actions had been or were being taken. Therefore,
                   we consider Recommendations 1 through 4 to be resolved and
                   implemented (Appendix 5).




                                     11
APPENDIX 1 – PRIOR AUDIT COVERAGE
                 The March 1995 report “Selected Administrative Functions, Virgin
OFFICE OF        Islands National Park, National Park Service” (No. 95-I-647)
INSPECTOR        stated that the Park did not (1) ensure that franchise fee
GENERAL REPORT   reconsiderations were conducted and implemented in a timely
                 manner, (2) assess reasonable fees for the use by concessionaires
                 of government buildings, (3) obtain reimbursement for refuse
                 collection and other services provided to concessionaires, and (4)
                 consistently authorize commercial boating operations in the Park.
                 In addition, concessionaires had not reimbursed the Park for
                 $57,000 in expenses related to providing refuse collection, sewage
                 treatment, and water system maintenance. Regarding other
                 administrative functions, the Park did not dispose of unserviceable
                 equipment valued at $48,000 in a timely manner and held
                 collections of up to $22,000 for several months before deposit.
                 Based on the Park Superintendent’s response to the draft report,
                 the report’s three recommendations were considered resolved.




                                  12
APPENDIX 2 – MONETARY IMPACT
FINDING AREAS                                Unrealized
                                             Revenues

Untimely Deposit of
  Franchise Fees                               $475

Parking Fee Collections                         426

   Totals                                      $901




 __________
 All amounts represent Federal funds.




                                        13
APPENDIX 3 – APPROVED CONCESSIONAIRES
                  Mile Mark, Inc.
CONTRACT          Teroro, Inc.
CONCESSIONAIRES


                  Carl Punzenberger
PERMIT            Diva, Inc.
CONCESSIONAIRES   Llewelyn, Inc.
                  Southern Seas, Inc.




                                    14
APPENDIX 4 – RESPONSE TO DRAFT REPORT




                    15
     APPENDIX 4
       Page 2 of 5




16
                                                                                 APPENDIX 4
                                                                                   Page 3 of 5


Draft Audit Report Response V-IN-NPS-0004-2003-A

Findings:

The St. Croix National Park did not administer its concession operations in accordance with
Park Service Guidelines. Specifically, we found that the Park did not maintain complete and
accurate records to ensure concessionaire compliance with financial and performance
requirements and did not deposit franchise fees timely. National Park Service Guideline 48, the
Parks Concession Management Plan, and the terms of concessionaire’s contracts and permits
establish requirements for documents that must be maintained in the Park’s files on each
concessionaire and for timely deposit of franchise fees. Specifically, we found that:

► Concessionaire files did not always contain required documentation to support (1) the
  amount of franchise fee payments received, (2) evaluations of concessionaire operations, (3)
  safety inspections of concessionaire vessels, (4) existence of adequate insurance coverage,
  (5) crew member safety certifications, and (6) annual financial reports.

► Franchise fee collections were deposited an average of 2 months after the date of collection,
  with some deposits being delayed as long as 9 months.

We attribute the lack of compliance to the fact that the Park had not assigned a specific
employee to be responsible for the concession management operations. Without complete and
accurate records, the Park can not ensure that the concessionaires pay the appropriate franchise
fees or determine their compliance with all insurance and safety requirements.

Corrective Action Taken By the Park Superintendent:

1) The superintendent has taken on the responsibility of oversight of the concession
   management operation. As such, I have modified the park’s organizational chart to include
   a new position of Concession Management Specialist Gs-12. This position was classified
   and approved last fiscal year, and will be advertised within the next few weeks. The
   individual selected for this position will be responsible for the entire concession
   management program as described in NPS-48. In the interim, until the position is filled we
   plan to have the Lead Visitor Use Assistant conduct the deposit of franchise fee payment to
   the Federal Reserve Bank in a timely manner with the Administrative Officer serving as
   back up. Also worthy of mention is that we are currently working in establishing an
   approved TGA in St. Croix in order to facilitate deposits.




                                              17
                                                                                     APPENDIX 4
                                                                                       Page 4 of 5

Finding:

The St. Croix National Park did not implement adequate internal controls or develop formal
policies or procedures for employees to collect parking lot and entrance fees. As a result, we
noted several internal control weaknesses. Specifically, we found that:

► Park officials did not regularly reconcile the internally-generated reports produced by the
  cash register used for parking fee collections to the actual amount of cash in the register at
  the end of each day. Additionally, due to problems with the programming of the register
  and possible user error, the internally-generated reports were not always accurate and
  sometimes were not produced at all. As a result, our review of the available collection and
  deposit records for a sample of 11 deposit batches during the period of August 3, 2001,
  through January 21, 2003, disclosed cash shortages (deposits less than collections) totaling
  $426.

► Internal controls over entrance fee collections also needed improvement. For example, (1)
  the internal reports generated by the cash register were incorrect and unreliable, (2) the cash
  register could be made to print duplicate receipts, (3) collections were not being deposited
  timely, and (4) unannounced spot checks of cash collections were not being performed.

As a result of these conditions, the possibility existed for cash collections to be misappropriated.

Recommendation:

1. Develop and implement formal policies and procedures to ensure that adequate internal
controls exist over the collection and deposit of parking fees. These controls should include
procedures to limit the authority to issue “non-paying” tickets to specifically designated
officials, require daily reconciliations of cash collections to the cash register reports and the
used parking tickets, and require the retention of used parking tickets until any reconciliation
discrepancies have been reviewed and satisfactorily explained.

2. Direct the Fee Collection Supervisor and other collection personnel to comply with the
collection and deposit requirements contained in the Fee Collection Guidelines for entrance
fees.

3. Address the problems related to the accuracy of the internal reports generated by the cash
registers used for parking lot and entrance fees, either by having the cash registers
reprogrammed to correct the problems or by acquiring new cash registers.




                                                18
                                                                                     APPENDIX 4
                                                                                       Page 5 of 5

Corrective Action Taken by the Superintendent:

1) We are in the process of developing formal written policies and procedures in the forms of
   SOP’s, for the internal controls over the collection and deposit of parking fees. In the
   interim, we have instructed the Lead Park Ranger Gs-5, to make deposits once per week. As
   superintendent, I issued a memorandum limiting the authority to division chiefs only, to
   authorize “no-paying tickets for persons on official business at the park. All used tickets are
   being reconciled daily, and all used tickets are kept until discrepancies have been reviewed
   and corrected and explained in a satisfactorily manner.
2) The Fee Collector Supervisor and all fee collectors has been advised of the collection and
   deposit requirements contained in NPS-22 guideline for fee collection operation. Each
   employee has received instruction to follow these guideline during weekly meetings.
3) We have purchased a new cash register that address the concerns found in the audit. All fee
   collectors has received training from the manufacture representative on the operation of the
   new machine.

SEE BELOW:
Policy and procedures have been developed to ensure adequate internal controls over the
collection and deposit of entrance fees and parking fees. These Standard Operating Procedures
are now in the final review and printing stages. In the interim cashiers are to follow the draft
version and weekly meetings are scheduled in order to verify that compliance is adhered to.

Authority of “non-paying” tickets for persons on official business at the park has been limited to
designated officials, in this case to division chiefs only. As superintendent a memorandum
limiting this authority has been made available and distributed.

All tickets for the parking lot are now secured in Ziploc bags and retained at the park for use in
reconciliation.

All fee collectors have been advised of the availability of NPS-22 at the fee collection office.
All collection personnel have been requested to comply with these requirements.

A new cash register has been purchased and has replaced the old register. The new register was
programmed to meet and currently exceeds the NPS-22 standards thus providing correct and
reliable readings. This has made it possible for the fee collectors to print internal reports on a
daily basis to review and reconcile at the end of their shifts. Together with the purchase of the
new register all cashiers received a formal 4 hour training from the vendor representative thus
providing hands on knowledge on its operation.

Deposits are being conducted on a weekly basis by the Lead Visitor Use Assistant. And
unannounced audits or spot checks are being conducted to ensure accountability.




                                                19
APPENDIX 5 – STATUS OF RECOMMENDATIONS

Finding/Recommendation
       Reference             Status                       Action Required

        1 to 4           Resolved and        No further response required.
                         implemented.




                                        20
                            How to Report
                Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone B Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit
allegations of any inefficient and wasteful practices, fraud, and abuse related to
Departmental or Insular Area programs and operations. You can report allegations to us
by:
             Mail:         U.S. Department of the Interior
                           Office of Inspector General
                           Mail Stop 5341-MIB
                           1849 C Street, NW
                           Washington, DC 20240
             Phone:        24-Hour Toll Free                 800-424-5081
                           Washington Metro Area             202-208-5300
                           Hearing Impaired (TTY)            202-208-2420
                           Fax                               202-208-6081
                           Caribbean Field Office            340-774-8300
                           Hawaiian Field Office             808-525-5310
             Internet:     www.oig.doi.gov




                         U.S. Department of the Interior
                           Office of Inspector General
                               1849 C Street, NW
                             Washington, DC 20240
                                     www.doi.gov
                                    www.oig.doi.gov
